No. 20-1149

 

IN THE
Supreme Court of the United States

BRISTOL-MYERS SQUIBB CO., SANOFI-AVENTIS U.S. LLC,
SANOFI US SERVICES INC., FORMERLY KNOWN AS SANOFIAVENTIS
U.S. INC., AND SANOFI-SYNTHELABO LLC,
PETITIONERS,
vw
CLARE E. CONNORS, IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF Hawall

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 28, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
